Report No. DODIG-2012-017                 November 7, 2011





      U.S. Naval Academy Officials Did Not Adhere to 

               Contracting and Gift Policies

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AAM                           American Association of Museums
ADA                           Antideficiency Act
ASN(M&RA)                     Assistant Secretary of the Navy (Manpower and Reserve Affairs)
BUPERS                        Bureau of Naval Personnel
DONHAMS                       Department of Navy Heritage Asset Management System
GAO                           Government Accountability Office
NAAA                          Naval Academy Athletic Association
NABSD                         Naval Academy Business Services Division
NAF                           Nonappropriated Fund
NAFI                          Nonappropriated Fund Instrumentalities
NHHC                          Naval Heritage and History Command
SECNAV                        Secretary of the Navy
SFFAS                         Statement of Federal Financial Accounting Standards
SJA                           Staff Judge Advocate
U.S.C.                        United States Code         

USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial Officer, 

                                  DoD
USNA                          United States Naval Academy
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704 




                                                                                 November 7, 2011


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)lCHTEF
                  FINANCIAL OFFICER, DOD
               CHIEF OF NAVAL OPERA nONS
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL OF THE NAVY
               SUPERINTENDENT, U.S. NAVAL ACADEMY
               DIRECTOR, NAVAL HERITAGE AND HIS TOR Y COMMAND

SUBJECT: 	 U.S. Naval Academy Officials Did Not Adhere to Contracting and Gift Policies
           (Report No. DODIG-2012-017)

We are providing this report for review and comment. We performed this audit in response to a
request from staff of the Senate Armed Services Committee. U.S. Naval Academy officials
improperly contracted for the production of a short motion picture and television commercials
and wasted about $3.5 million on the contract. In addition, they allowed the acceptance of in­
kind gifts without proper authorization, did not properly record all in-kind gifts, inappropriately
accepted $343,208 in corporate sponsorship fl.lI1ds, and accepted monetary gifts without
reviewing for prohibited sources. This report discusses a potential violation of the
Antide1iciency Act. We considered management comments on a draft of this report when
preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The Assistant
Secretary of the Navy (Manpower and Reserve Affairs) responded for the Chief of Naval
Operations; Superintendent, U.S. Naval Academy; and the Director, Naval Heritage and History
Command. The Assistant Secretary comments on Recommendations B.2.a, E.I, and E.2 are
partially responsive and comments on Recommendations A.2, B.I.a, B.l.b, and D.2 are not
responsive. We request additional comments by December 7, 2011. Please see the
recommendations table on the back of Results in Brief.

Ifpossible, send a .pdffile containing your comments to audiinr@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature. IfyOll arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SlPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868 (DSN 329-5868).



                                             f~Q /J1tV~
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting
 Report No. DODIG-2012-017 (Project No. D201 0-DOOOFP-0273.000)                      Novemb er 7, 201 1




                Results in Brief: U.S. Naval Academy
                Officials Did Not Adhere to Contracting
                and Gift Policies
What We Did                                           The NABS D Director inappropriately accepted
                                                      $343,208 in corporate sponsorsh ip funds. This
We determined whether the U.S. Naval Academy
(USNA) and its supporting organizations were          occurred because the Deputy did not provide
properly di sbursing, recording, accepting, and       adequate oversight. As a result, the NABSD
                                                      Director retained unauthorized funds.
reporting donations, gifts, and nonappropriated
funds (NAPs). From January 1 through                  The Deputy and USNA Comptroller d id not
December 3 1, 2010, USNA received                     review USNA Foundation monetary gifts to
381 monetary g ifts, totaling $5.7 million,           determine whether they were received from
and 153 in-kind gift donations, valued at
                                                      prohibited sources. T his occurred because the
$25.1 million.
                                                      USNA and the Foundation memorandum of
What We Found                                         understanding did not require the Foundation to
USNA official s did not have adequate processes       review gifts for prohibited sources or to provide
for disbursing, recording, accepting, and reporting   the donor source. As a result, USNA could be
gifts and NAPs. Specifically, the Nava l Academy      rece iving gifts fro m prohibited sources.
Business Services Division (NABSD) Director
improperly contracted for a short motion picture
                                                      What We Recommend
and television commercials. This occurred            The Under Secretary of Defe nse (Comptrolle r)/
because the USNA Deputy for Finance (Deputy)         Chief Financial Officer, DoD (USD(C)/CFO),
did not provide proper oversight of the contract     should initiate a preliminary review for a possible
and NABSD did not have a contracting officer.        ADA violation. The Chief of Naval Operations
As a result, the NABSD Director wasted about         should establi sh a quality assurance program for
$3 .5 million. USNA may have augmented its           contracts at USNA. Among other things, the
budget by $3 .5 million and may have committed a     USNA Superintendant should establish policies
potential Antidefic iency Act (ADA) violation.       and procedures fo r accepting, recording, and
                                                     inventorying in-kind g ifts, conduct an inventory of
The USNA Museum Director did not properly            in-kind gifts, deposit sponsorship funds with the
record all of its in-kind g ifts into its inventory  U.S. Treasury, a nd develop procedures for
system and never conducted a complete inventory. review ing donations fo r proh ibited sources.
This occurred because Museum officials did not
have po licies and procedures in place for           Management Comments and
recording in-kind gifts. As a result, inve ntory was Our Response
vulnerable to loss and theft.
                                                     Comments from USD(C)/CFO were responsive.
                                                     We request add itiona l comments from the
The Deputy accepted over $ 184,000 of in-k ind
                                                     Assistant Secretary of the Navy (Manpower and
gifts from an a lumnus without obtaining the
                                                     Reserve Affairs), who responded for Chief of
proper authorization and failed to inventory the
                                                     Naval Operations, USNA Superintendent, and
gifts. This occurred because he bypassed the
                                                     Director, Naval Heritage and Hi story Command.
Navy gift receipt process . The acceptance g ives
                                                     Please see the recommendations table on the
the appearance of impropriety, and failin g to
                                                     back of this page.
inventory increases the risk of loss or theft.
Report No. DODIG-2012-017 (Project No. D2010-D000FP-0273.000)             November 7, 2011



Recommendations Table

              Management                      Recommendations           No Additional
                                             Requiring Comment       Comments Required
Under Secretary of Defense                                          A.1
(Comptroller)/Chief Financial Officer, DoD
Chief of Naval Operations                    A.2

Superintendent, U.S. Naval Academy           B.1.a, B.1.b; B.2.a;   A.3; B.1.c, B.1.d,
                                             D.2; and E.1, E.2      B.1.e, B.1.f; B.2.b; C.;
                                                                    D.1; and E.3
Director, Naval Heritage and History                                B.3.a, B.3.b, and B.3.c
Command

Please provide comments by December 7, 2011.




                                               ii
Table of Contents
Introduction	                                                             1


      Audit Objective                                                     1

      Background on U.S. Naval Academy                                    1

      Gift Definition                                                     2

      Naval Inspector General Report                                      2

      Internal Controls Over Gifts and Nonappropriated Funds              3


Finding A. 	Improper Contracting Actions and Questionable Payments        4


      NABSD Director Contracted for a Short Motion Picture and 

         Six Commercials                                                 4

      Improper Contracting Actions                                       5

      Questionable Payments                                               7

      No Contract Oversight and No Contracting Officer                    8

      NABSD Director Wasted Funds                                         8

      Augmentation of Funds and Potential Antideficiency Act Violation    9

      Corrective Management Actions                                      10 

      Conclusion                                                         10     

      Recommendations, Management Comments, and Our Response             11 


Finding B. Improvements Are Still Needed Over the USNA Museum’s 

           Recording of In-kind Gifts                                    13 


      USNA Museum and In-kind Gifts Definition                           13 

      In-kind Gifts Not Recorded in USNA Museum Inventory System         14 

      In-Kind Gift Identification Numbers                                15 

      USNA Museum’s Inventory System Lacked Security Controls and 

          Did Not Use NHHC Inventory System                              16 

      Recommendations, Management Comments, and Our Response             17 


Finding C. 	Unauthorized Acceptance of Gifts and Failure 

            to Inventory Gifts                                           20 


      USNA Deputy Improperly Accepted In-Kind Gifts                      20 

      Corrective Management Actions                                      21 

      Recommendations, Management Comments, and Our Response             21 


Finding D. 	Inappropriate Acceptance and Use of Sponsorship Funds        23 


      USNA Received Corporate Sponsorship Funds                          23 

      NABSD Director Not Authorized to Accept Sponsorship Funds          23 

      Holding Unauthorized Funds                                         24 

      Corrective Management Actions                                           25 

      Recommendations, Management Comments, and Our Response                  25 


Finding E. 	Review of USNA Foundation Monetary Gifts for Prohibited

            Sources Was Not Performed and Gifts Over $60,000 

            Were Not Approved                                                 27 


      Review of the Source of Gifts Not Performed                             27 

      Gifts to USNA Valued at More Than $60,000                               28 

      Recommendations, Management Comments, and Our Response                  29 


Appendices

      A. 	Scope and Methodology                                               31 

              Prior Coverage on Gift Policy and Procedures                    32 

      B. 	Nonprofit Organizations and Nonappropriated Fund 

             Instrumentalities Supporting the U.S. Naval Academy              34 

      C. 	Update on Substantiated Allegations From the 

             Naval Inspector General Report                                   36 

      D. Payments Before Contractor’s Signature 	                             39 

      E. Illustration of Contractor’s Payment Request 	                       40 

      F. Disbursement Requests From the USNA of $60,000 	                     41 


Managements Comments

      Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD   43 

      Department of the Navy                                                  45 

Introduction
We performed this audit in response to a request from staff of the Senate Armed Services
Committee. We met with Committee staff and discussed their request for potential audits of the
U.S. Naval Academy (USNA), the U.S. Military Academy, and the U.S. Air Force Academy gift
and nonappropriated funds (NAFs). The Committee staff agreed with a phased audit approach
for reviewing the Military Academies starting with the USNA. The Committee staff asked us to
review the USNA policies and procedures over its gifts and NAFs processes and adequacy of the
corrective actions taken on allegations substantiated by the Naval Inspector General.

Audit Objective
Our objective was to determine whether the USNA, its nonappropriated fund instrumentalities
(NAFIs),1 and its supporting nonprofit organizations were properly disbursing, recording,
accepting, and reporting gifts and nonappropriated funds. We also reviewed the adequacy of the
corrective actions taken on allegations substantiated by the Naval Inspector General. See
Appendix A for a discussion of the scope and methodology and prior coverage related to the
objective.

Background on U.S. Naval Academy
The Naval Academy is the Navy’s primary undergraduate educational institution. Its mission is

          To develop Midshipmen morally, mentally and physically and to imbue them with the highest
          ideals of duty, honor and loyalty in order to graduate leaders who are dedicated to a career of naval
          service and have potential for future development in mind and character to assume the highest
          responsibilities of command, citizenship, and government.

The nonprofit organizations supporting USNA are the Naval Academy Athletic Association;
USNA Alumni Association; and USNA Foundation. The USNA NAFIs also support the USNA.
See Appendix B for a description of these nonprofit organizations and NAFIs.

USNA and its NAFIs must comply with Secretary of the Navy (SECNAV) and other Federal
regulations for administrative matters, personnel, and procurement, including the following:

       	 Office of the Chief of Naval Operations Instruction 5450.330A, “Mission, Functions and
          Tasks of the United States Naval Academy, Annapolis, MD,” December 28, 2009,
          provides the functions and tasks of the USNA.

       	 Secretary of the Navy Instruction (SECNAVINST) 5401.2A, “Establishment,
          Management, and Control of Nonappropriated Fund Instrumentalities and Financial
          Management of Supporting Resources,” January 21, 2004, describes the establishment,
          management, and control of NAFIs and financial management of supporting resources
          and applies to all military and civilian NAFIs within the Department of the Navy.



1
    A NAFI is a fiscal entity of the U.S. Government that is fully or partially supported by nonappropriated funds.

                                                            1

   	 Bureau of Naval Personnel Instruction (BUPERSINST) 7043.1B, “Procurement Policy
      for Bureau of Naval Personnel (BUPERS) Nonappropriated Fund (NAF) Activities,”
      August 23, 2000, provides NAFI procurement guidance.

USNA must also comply with the accreditation and athletic regulations of the Commission on
Higher Education of the Middle States Association of Colleges and the National Collegiate
Athletic Association.

The key senior managers for the USNA are the USNA Superintendent, the Deputy for Finance,
the Director of the Naval Academy Business Services Division (NABSD), the Comptroller, and
the Director of the Museum. The Superintendent reports to the Chief of Naval Operations. The
Deputy for Finance reports to the Superintendent. The NABSD Director and the Comptroller
report to the Deputy for Finance. The Director of the Museum reports to the Academic Dean and
Provost, who reports to the USNA Superintendent.

Gift Definition
Federal Accounting Standards Advisory Board, Statement of Federal Financial Accounting
Standards (SFFAS) No. 7, “Accounting for Revenue and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting,” April 1996, defines donations as
“contributions to the Government, i.e., voluntary gifts or resources to a government entity by a
nonfederal entity. Donations may be financial resources, such as cash or securities, or
nonfinancial resources such as land or buildings.”

Naval Inspector General Report
On November 17, 2009, the Naval Inspector General issued a report, “Senior Official
Case 200801937: Alleged Misuse of Gift Funds and Nonappropriated Funds (NAF),” that
identified misuse of USNA gift and NAFs. Specifically, the former USNA Superintendent
authorized a subordinate to expend gift funds for unauthorized purchases and entertainment. The
USNA Deputy for Finance established an unauthorized contingency fund bank account, executed
an improper contract, failed to follow USNA gift receipt procedures, and improperly gave a gift
to a superior.

After the Naval Inspector General report was issued:

   	 The USNA Deputy for Finance was suspended for 5 days.
   	 The NABSD Director was suspended for 7 days.
   	 The Command Master Chief was rotated to another assignment.
In addition, the former USNA Superintendent retired in August 2010. The Deputy for Finance
left USNA in January 2011.

The Naval Inspector General identified several issues at the USNA and substantiated
six allegations. We conducted our audit to determine whether the USNA took corrective actions
and to test the controls, if any, that were established to correct the internal control weaknesses
identified. Specifically, we conducted our audit to identify causes of the internal control
weaknesses, determine effects, and make any recommendations on Navy policies and

                                                2

procedures, as necessary. We also reviewed the gift and NAF processes at the USNA. See
Appendix A for additional information on the scope and methodology for our review. See
Appendix C for a summary of the allegations that were substantiated by the Naval Inspector
General and the corrective actions we reviewed.

Internal Controls Over Gifts and Nonappropriated Funds
We identified internal control weaknesses as defined by DoD Instruction 5010.40 “Managers’
Internal Control Program (MICP) Procedures,” July 29, 2010, at USNA over its contracting and
gift processes. The USNA officials did not have adequate processes for disbursing, recording,
accepting, and reporting donations, gifts, and NAFs.

The Deputy for Finance did not provide proper oversight of a contract for a short motion picture
and six television commercials, and the USNA NABSD did not have a contracting officer to
ensure that contracting procedures were followed. In addition, the USNA Museum did not have
policies and procedures in place for recording in-kind gifts. The Museum Director did not
provide oversight of the inventory system, and personnel did not receive guidance on using the
Naval Heritage and History Command inventory system. Additionally, the USNA Deputy for
Finance bypassed Navy gift receipt processes, and USNA guidance for accepting in-kind gifts
was inadequate. The Deputy for Finance did not provide adequate oversight over USNA
acceptance and expenditure of corporate sponsorship funds. Furthermore, USNA did not have a
memorandum of understanding with the USNA Foundation to provide the donor source. We
will provide a copy of the report to the senior official responsible for internal controls at USNA.




                                                 3

Finding A. Improper Contracting Actions
and Questionable Payments
The USNA Deputy for Finance (Deputy) allowed improper contracting for the production of a
short motion picture and six television commercials. In addition, the USNA, Naval Academy
Business Services Division, Director2 (NABSD Director) did not:

       seek competitive bids or properly justify a sole-source award,
       obtain the required legal review,
       have authorization to issue the contract, and
       use a Government contract.

In addition, the NABSD Director made the following questionable payments using NABSD
NAFs. The NABSD Director:

       paid $1.18 million before the contract was signed,
       paid $980,248 more than the contract price, and
       paid $3.5 million without obtaining invoices.

This occurred because the Deputy did not provide proper oversight of the contract and NABSD
did not have a contracting officer.3 As a result, the NABSD Director wasted approximately
$3.5 million.

The USNA may have augmented its budget by $3.5 million and may have committed a potential
Antideficiency Act violation.

NABSD Director Contracted for a Short Motion Picture and
Six Commercials
In May 2008, the NABSD Director contracted with an independent contractor to produce a short
motion picture to be shown at the USNA Visitor Center and two commercials to be aired during
USNA televised sporting events. Specifically, the NABSD Director contracted for the
production of a 10-minute motion picture and one 30-second and one 60-second commercial.
The original contract price was $2.5 million. The NABSD Director subsequently agreed to pay
the contractor to produce four additional 30-second commercials without a signed contract.
During an audit interview, the Deputy referred to Chief of Naval Operations diversity goals as
justification for awarding this contract. He stated that USNA needed to make significant




2
  The NABSD Director reports to the Deputy for Finance. 

3
  The former USNA Superintendent was the NAF contracting officer, and although he was authorized to re-delegate 

this authority, he did not delegate it to any NABSD personnel. 



                                                       4

changes for the class of 2013, entering the USNA in the summer of 2009, to meet diversity goals
and had only fall 2008 and winter 2009 to reach out to newly targeted markets. However, the
Staff Judge Advocate (SJA) and Comptroller did not provide any documentation of the Chief of
Naval Operations diversity goals.

Improper Contracting Actions
The NABSD Director improperly contracted for the production of a short motion picture and six
television commercials. The NABSD Director did not:

      seek competitive bids or properly justify a sole-source award,
      obtain a required legal review,
      have authorization to issue a contract, or
      use a Government contract.

Insufficient Sole-Source Justification
The NABSD Director did not seek competitive bids for the contract, and the sole-source award
was not properly justified. DoD Directive 4105.67, “Nonappropriated Fund (NAF) Procurement
Policy,” May 2, 2001, states that NAF procurements are to use competitive negotiation
procedures to the maximum extent practicable, and offers are to be solicited from a reasonable
number of sources, except when noncompetitive procurement is justified. Further, NAF
contracts are to be awarded to offerers who provide the best value to the NAFI.

USNA/Annapolis Area Coordinator Instruction (USNA/AACINST) 7010.2A, “Nonappropriated
Fund Procurement Policy,” September 16, 1991, states that procurements above $2,500 require
competition; that reasonable solicitation of qualified suppliers is to be made to ensure that the
procurement is made to the advantage of the fund; and that, generally, solicitation may be limited
to three suppliers. USNA/AACINST 7010.2A further states that provisions of the Federal
Acquisition Regulation should be followed, if feasible.

BUPERSINST 7043.1B, “Procurement Policy for Bureau of Naval Personnel (BUPERS)
Nonappropriated Fund (NAF) Activities,” August 23, 2000, requires contracts to be
competitively awarded. In addition, BUPERSINST 7043.1B requires the sole-source
                                   justification to contain an explanation of why other sources are
         The sole-source           not acceptable. The sole-source justification did not explain
       justification did not       why other sources were not acceptable. Furthermore, it did not
   explain why other sources       contain any evidence of reviewing other sources. In addition,
      were not acceptable.         the Deputy backdated the sole-source justification. Although
the sole-source justification from the Deputy to the NABSD Director was dated April 30, 2008,
we obtained an e-mail dated May 1, 2008, which stated that the Deputy needed to write a sole-
source justification for the record. Therefore, even the April 30, 2008, date of the sole-source
justification was not accurate.




                                                 5

The NABSD Director did not issue a request for proposals because he decided to select a
contractor who was already promoting a branding4 concept to the Navy. The Deputy stated in
the sole-source justification that the USNA motion picture and television commercials should be
consistent with the Naval Recruitment Command’s recruitment campaign to form a foundation
for branding Navy-wide. However, at the time the NABSD Director entered into negotiations,
the contractor had not developed a unique and innovative branding concept for the Naval
Recruitment Command. The Naval Recruitment Command decided not to use this contractor
upon discovering that the experience presented on the contractor’s resume was inaccurate. After
the contractor’s short motion picture was completed and the television commercials aired
in 2008, the former SJA conducted a due-diligence review of the contractor’s qualifications in
March 2009. The review determined that the contractor overstated its background but had not
committed any criminal acts.

No Evidence of a Legal Review
The NABSD Director relied on statements made by the Deputy, who stated that the SJA had
reviewed the contract for correctness. However, the contract files did not contain any evidence
that a legal review occurred before the contract was signed. DoD Instruction (DoDI) 4105.71,
“Nonappropriated Fund (NAF) Procurement Procedure,” February 26, 2001, requires the USNA
Superintendent to establish procedures for obtaining a legal review. BUPERSINST 7043.1B
states that the contracting office is responsible for obtaining a legal review.

No Authorization to Issue a Contract
The NABSD Director signed the contract on May 15, 2008, without appropriate authority. The
former USNA Superintendent was the only individual authorized to sign a USNA NABSD
contract over $25,000. USNA/AACINST 7010.2A states that the USNA Superintendent must
approve all procurements over $25,000. The former USNA Superintendent was authorized to
delegate his signing authority, under SECNAVINST 7043.5B, “Nonappropriated Fund
Procurement Policy,” April 18, 2002. However, he had not delegated the signing authority when
the NABSD Director signed the contract.

NABSD Director Did Not Use a Government Contract
The NABSD Director did not use a Government contract; instead, he used one developed by the
contractor. DoDI 4105.71, section 6.2.2, “Solicitation Development and Contract Formation,”
states that all NAF contracts should include the use of NAF contract clauses. DoDI 4105.71 also
states that NAF procurements are to be accomplished by trained procurement personnel to the
best advantage of the NAFI. The contract the NABSD Director signed did not contain the
required NAF clauses, and therefore, it was not in the best interest of USNA NABSD.

BUPERSINST 7043.1B, states that “formal contracting procedures shall be used for amounts
above $25,000.” The contract did not contain the Government clauses required by
BUPERSINST 7043.1B, which are designed to protect the interests of the Federal Government.



4
 Branding involves the process of creating a unique name and image in the public’s mind through advertising
campaigns with a consistent theme.


                                                        6

For example, BUPERSINST 7043.1B states that USNA can audit the contract up to 3 years after
the expiration date and final payment is made. The contract the NABSD Director signed limited
the time the USNA could audit the contract to 1 year after the final payment was made.

Questionable Payments
The NABSD Director made $3.5 million in questionable payments on the contract. Specifically,
the NABSD Director disbursed funds before the contract was signed, made payments exceeding
the contract price without contract modifications, and did not obtain invoices or other
documentation from the contractor showing the expenses incurred.

Payments Made Before the Contract Was Signed
The NABSD Director paid the contractor $1.18 million before the contract was signed (see
Table 1). Further, he authorized the contractor to begin work before the contract was signed.
Specifically, the contract was signed on May 15, 2008, with an effective date of March 1, 2008.
However, Section 1501, Title 31, United States Code, (31 U.S.C. § 1501), “Documentary
Evidence Requirements for Government Obligations,” states that an amount is to be recorded as
obligation only when supported by documentary evidence of a “binding agreement between an
agency and another person that is in writing, and for a purpose authorized by law.” See
Appendix D for an example of a payment made before the contract was signed.

                  Table 1. Payments Made Before Contract Was Signed
                 Days Before Contract Signed     Date       Amount
                             36              April 9, 2008 $784,864
                             13              May 2, 2008    392,432
                                                       Total       $1,177,296

Payments Exceeded Contract Price
The NABSD Director paid $980,248 more than the contract price, without contract
modifications. The contract was signed on May 15, 2008, for $2,527,568; however, the NABSD
Director paid the contractor a total of $3,507,816, which was $980,248 more than the contract
price. According to 31 U.S.C. § 1501, an amount is to be recorded as an obligation of the U.S.
Government only when supported by documentary evidence of a binding agreement in writing
and for a purpose authorized by law. In addition, BUPERSINST 7043.1B states that contract
modifications must always be confirmed in writing by use of an SF-30, “Amendment of
Solicitation/Modification of Contract.”

Payments Made Without Invoices
The NABSD Director did not obtain invoices or other documentation from the contractor to
support the expenses incurred. The NABSD Director made eight vendor payments, totaling
$3,507,816, without obtaining invoices or other documentation showing the actual expenses
incurred. Without invoices, the NABSD Director was not able to validate the appropriateness of
the payment. DoD Financial Management Regulation, Volume 10, Chapter 7 “Prompt Payment
Act,” updated December 2009, states that before making a payment, DoD Components must
ensure that appropriate payment documentation is established to support payment of invoices.

                                               7

This documentation includes the contract, receipt/acceptance report, and a proper invoice.
BUPERSINST 7043.1B also requires invoices and states that payment by the NAFI is due upon
receipt of a proper invoice from the contractor. A proper invoice must include the invoice date,
name of contractor, contract number, date of shipment, and name and address to send payment.
See Appendix E for an example of the contractor’s payment request.

No Contract Oversight and No Contracting Officer
The NABSD Director improperly contracted for the short motion picture and television
commercials and made questionable payments because he did not follow procedures. In
addition, the Deputy did not provide proper oversight of the contract and NABSD did not have a
contracting officer. The Deputy stated he bypassed standard contracting practices and instructed
the NABSD Director to award the contract because of the urgency to produce the television
commercials. However, he could not provide support for the urgency.

DoDI 4105.71 states that NAF procurements are to be accomplished by trained procurement
personnel in a fair, equitable, and impartial manner, and to the best advantage of the NAFI. A
contracting officer should have the expertise to ensure that DoDI 4105.71 requirements are met.
In addition, BUPERSINST 7043.1B states that the contracting office is responsible for analyzing
the requirement, obtaining competition, determining the source, performing contract
administration, and obtaining legal reviews. Contracting officers should have the expertise to
ensure that a contract meets BUPERSINST 7043.1B requirements.

Although the former USNA Superintendent was the NAF contracting officer, he had not
delegated his contracting authority to the NABSD Director. Without a contracting officer, the
NABSD Director was not able to ensure all contracting actions and payments were completed
according to established NAFI procurement policies. The Chief of Naval Operations should
establish a quality assurance program for the USNA to ensure that future contracts are awarded
and administered in accordance with contracting regulations.

NABSD Director Wasted Funds
The NABSD Director wasted5 approximately $3.5 million. USNA spent $3,507,816 to produce
one 10-minute short motion picture and five 30-second and one 60-second commercials. After
                                       paying for the short motion picture and commercials, the
     USNA spent $3,507,816 to          USNA’s audiovisual department spent additional time
   produce one 10-minute short         editing the short motion picture. It was also necessary to
      motion picture and five          use an additional contractor to edit the short motion
   30-second and one 60-second         picture. The 2008 short motion picture produced for the
            commercials.               USNA Visitor Center did not achieve its purpose, which
was to describe the USNA mission. USNA employees, alumni, and visitors stated the
contractor’s video did not describe the USNA mission and did not portray typical careers USNA



5
 DoD Directive 7050.4, “Awards for Cost Savings Resulting from the Disclosure of Fraud, Waste or
Mismanagement,” October 21, 2004, defines waste as the extravagant, careless, or needless expenditure of DoD
funds; or the consumption of DoD property that results from deficient decisions, practices, controls, or systems.


                                                          8

graduates pursued. For example, the motion picture did not mention the Marine Corps and
submariners as career options. A USNA official stated the motion picture “misrepresented what
the USNA produces.”

The cost of the commercials and motion picture was excessive. As a comparison, in 2006, the
USNA produced one 30-second and one 60-second commercials for $14,000. The 2006
commercials had the same purpose as the 2008 commercials. They were used for recruiting.
The commercials were sent to broadcast networks and aired during televised sporting events.
The 2006 USNA Visitor Center short motion picture was produced for approximately $200,000.
The USNA received the 2006 short motion picture as a $200,000 gift from the USNA Class
of 1965 through the USNA Foundation.

We concluded that the USNA wasted $3.5 million because the short motion picture did not
adequately describe the USNA mission and did not portray all the USNA career paths. In
addition, the USNA’s audiovisual department spent additional time editing the short motion
picture before the product could be used. Furthermore, the cost of the short motion picture and
commercials was excessive. They could have been produced by the USNA’s audiovisual
department with the assistance of the existing USNA contractor so that costs would have been
closer to what the USNA paid in 2006. The USNA decision to contract for the production of a
short motion picture and six television commercials was deficient and the expenditure of DoD
funds was careless and extravagant. The improper contracting actions and questionable
payments resulted from deficient controls and practices.

Furthermore, the contractor used USNA film footage and commercials in its promotional
materials without the required USNA disclaimers and permission. Without the required
disclaimers, the promotional materials gave the appearance the USNA was endorsing the
contractor.

Augmentation of Funds and Potential Antideficiency
Act Violation
A potential Antideficiency Act (ADA) violation may have occurred when the Deputy and
NABSD Director used NAFs for the contract. The Deputy and the NABSD Director may have
augmented the USNA budget by using NAFs instead of appropriated funds for the contract.
Fund augmentation occurs when a Federal agency supplements its appropriations without
specific statutory authority. While the Navy had the statutory authority to accept the 2006 short
motion picture received as a gift from the USNA Class of 1965 under 10 U.S.C. § 69736, the

6
 10 U.S.C. § 6973: “Gifts, bequests, and loans of property: acceptance for benefit and use of USNA (a) The
Secretary of the Navy may accept, hold, administer, and spend any gift or bequest of personal property, and may
accept, hold, and administer any loan of personal property other than money, that is made on the condition that it be
used for the benefit of, or for use in connection with, the USNA or the USNA Museum, its collection, or its services.
Gifts and bequests of money and the proceeds from the sales of property received as gifts shall be deposited in the
Treasury in the fund called ‘United States Naval Academy Gift and Museum Fund.’ The Secretary may disburse
funds deposited under this subsection for the benefit or use of the USNA (including the USNA Museum) subject to
the terms of the gift or bequest.”



                                                         9

NABSD Director may not have had the authority to award the May 2008 contract for the
production of a 10-minute motion picture and one 30-second and one 60-second commercials.

The GAO, Office of the General Counsel, “Principles of Federal Appropriations Law,” Third
Edition, Volume II, February 2006, states that an agency may not augment its appropriations
from outside sources without specific statutory authority. If an agency gets additional funding
from another source without specific statutory authority, it has more budget authority than the
funding level Congress appropriated for those purposes during that time. When an agency
operates beyond its appropriated funding level with funds derived from another source, the
agency is circumventing congressional budget controls. By using NAFs instead of appropriated
funds for the contract, USNA circumvented Congress’s role and budget controls by obtaining
excess funds without congressional approval.

Appropriated funds were required for this contract; however, the NABSD Director used NAFs
instead. DoDI 1015.15, “Establishment, Management, and Control of Nonappropriated Fund
Instrumentalities and Financial Management of Supporting Resources,” October 31, 2007,
prohibits the use of NAFs for public affairs activities or to benefit select individuals or groups.
DoDI 1015.15 also states that NAFs should only be used for the benefit of the military
community. The USNA Comptroller stated he was not aware of any request from NABSD to
fund the short motion picture; however, USNA’s appropriated funds were not available at the
time of contract award because they were already committed to other labor and material projects.
There was no evidence that the Deputy or the NABSD Director ever requested appropriated
funds. In addition, the USNA Comptroller stated that the Deputy was aware that all appropriated
funds had already been committed to other projects. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD (USD(C)/CFO), should initiate a review to determine
whether the USNA violated the ADA by augmenting its budget by using NAFs instead of
appropriated funds.

Corrective Management Actions
In February 2010, USNA hired a contracting officer to manage the NAFI contracts and ensure
that contracts meet requirements. The former USNA Superintendent appointed the contract
specialist to act also as contracting officer for NAFI procurements. The former USNA
Superintendent issued USNAINST 7010.2B, “United States Naval Academy (USNA)
Nonappropriated Fund (NAF) Procurement Policy,” July 28, 2010, which states that fund
approval must be obtained before beginning the procurement process. USNAINST 7010.2B also
states that procurements in excess of $250,000 require prior written approval by the
Superintendent. The USNA Superintendent issued USNAINST 7010.3, “United States Naval
Academy (USNA) Nonappropriated Fund (NAF) Policy,” March 1, 2011, which aligns USNA
NAF policy with DoD and Department of the Navy policy. USNAINST 7010.3 explicitly
excludes the use of NAF for public affairs functions and for activities or programs outside the
purpose for which the NAFI was established.

Conclusion
We followed up on the work performed by the Naval Inspector General, as requested by the
Senate Armed Services Committee staff, to determine whether corrective actions were taken, the
adequacy of the corrective actions, and whether any other additional actions were needed. Based

                                                10 

on the internal control weaknesses that were previously identified and the ones we identified, we
concluded that additional actions were needed. A potential ADA violation may have occurred
because USNA used NAFs for the contract. Specifically, USNA may have augmented the
USNA budget by using NAFs instead of appropriated funds for the contract. Therefore,
USD(C)/CFO) should initiate a preliminary review to determine whether the USNA augmented
its budget. We also concluded that the USNA made numerous improper contracting actions and
$3.5 million in questionable payments.

Recommendations, Management Comments, and
Our Response
A.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, initiate a preliminary review to determine whether the U.S. Naval Academy
augmented its budget by using nonappropriated funds instead of appropriated funds,
resulting in a potential Antideficiency Act violation.

USD(C)/CFO Comments
The Deputy Chief Financial Officer agreed that a preliminary ADA review should be performed
as required by DoD Regulation 7000.14-R, “Department of Defense Financial Management
Regulation,” Volume 14, Chapter 3, “Preliminary Reviews of Potential Violations,” November
2010. An investigating officer from the office of Assistant Secretary of the Navy (Financial
Management and Comptroller) was assigned to do the preliminary investigation.

Our Response
The Deputy Chief Financial Officer comments were responsive, and no further comments were
required.

A.2. We recommend that the Chief of Naval Operations establish a quality assurance
program for the U.S. Naval Academy to ensure that future contracts are awarded and
administered in accordance with contracting regulations.

Chief of Naval Operations Comments
The Assistant Secretary of the Navy (Manpower and Reserve Affairs [ASN(M&RA)]) responded
for the Chief of Naval Operations, stating that the Chief of Naval Operations agreed and that
USNA implemented this recommendation following the 2009 Naval Inspector General
investigation by having the Commander, Navy Installations Command’s Fiscal Oversight Team,
perform annual audits of the USNA NAFIs to ensure compliance with DoD guidance on fiscal
management standards.

Our Response
The ASN(M&RA) comments were not responsive because it was not clear whether the annual
audits for ensuring compliance with DoD guidance on fiscal management standards include a
review of whether contracts are awarded and administered in accordance with contracting
regulations. We request that the ASN(M&RA) provide comments on the final report.



                                               11 

A.3. We recommend that the U.S. Naval Academy Superintendent revise USNAINST
7010.2B, “United States Naval Academy (USNA) Nonappropriated Fund (NAF)
Procurement Policy,” July 28, 2010, to include periodic reviews of the U.S. Naval Academy
contracting office to ensure that it follows procedures.

USNA Superintendent Comments
ASN(M&RA) responded for the USNA Superintendent, stating that the USNA Superintendent
agreed and that USNA would modify the command evaluation schedule conducted by the USNA
Inspector General to ensure NAFI compliance with procurement procedures. He also stated that
the annual audits by the Commander, Navy Installation Command, and USNA command
evaluation reviews will provide the USNA Superintendent the visibility required to ensure
compliance with the recommendation.

Our Response
The ASN(M&RA) comments were responsive, and no further comments were required.
Although USNAINST 7010.2B will not be revised, the proposed actions, if implemented, will
meet the intent of the recommendation.




                                            12 

Finding B. Improvements Are Still Needed
Over the USNA Museum’s Recording
of In-Kind Gifts
The USNA Museum personnel did not properly record in-kind gifts or heritage assets.7 The
Museum Director did not record all of the in-kind gifts into the inventory system, and a complete
inventory of all items had never been done. In addition, about 21,700 of nearly 53,000 in-kind
gifts in the Museum’s inventory system did not have an identification number or a complete
identification number. The USNA Museum inventory system also did not have security controls
established to prevent unauthorized modification or deletion of in-kind gifts in the inventory
system. Finally, the USNA Museum did not use the Naval Heritage and History Command
(NHHC) inventory system.

In-kind gifts were not recorded because the Museum Director did not have policies and
procedures in place for recording in-kind gifts. The lack of security controls occurred because
the Museum Director did not provide any oversight of the inventory system. The USNA
Museum staff did not use the NHHC inventory system because they had not received any
guidance from NHHC. As a result, the USNA Museum in-kind gift inventory assets were
vulnerable to loss and theft. In addition, Department of the Navy Balance Sheet, Note 10,
“General PP&E [Property, Plant, and Equipment],” section, “Heritage Assets and Stewardship
Land,” may be understated.

USNA Museum and In-kind Gifts Definition
In August 2005, the Vice Chief of Naval Operations approved a functional realignment of all
Navy Museums under NHHC. The Vice Chief of Naval Operations stated that all policy and
financial decisions would be consolidated at NHHC. The USNA Museum, established in 1845,
is located at Preble Hall and underwent a complete renovation from December 2007 to
January 2009 to turn the building into a modern museum. Changes included new exhibits,
improved collection storage areas, and upgraded office space. The Museum officially reopened
in summer 2009. Its holdings include ship models, paintings, prints, flags, uniforms, swords,
firearms, medals, sculptures, manuscripts, rare books, photographs, ship instruments and gear,
                               and a wide variety of personal memorabilia gifted by U.S. citizens.
     The USNA Museum           The USNA Museum’s primary mission is to serve the educational
      Director . . . must      needs of the USNA Brigade of Midshipmen and the faculty and
    respond to USNA and        staff. The USNA Museum Director, as a faculty member, comes
    NHHC directives and        under the authority of the USNA Academic Dean and Provost and
          policies.            must respond to USNA and NHHC directives and policies. USNA
Museum personnel are employees of NHHC.

The USNA Museum’s in-kind gifts or heritage assets are defined by SFFAS No. 29, “Heritage
Assets and Stewardship Land,” as property, plant, and equipment that are unique for one or more

7
    In-kind gifts that go to the USNA Museum are classified as heritage assets.


                                                           13 

of the following reasons: cultural, educational, historical, or natural significance. Heritage 

assets are collections of objects gathered and maintained for exhibition. 


USNAINST 4001.5, “Acceptance of Gifts for the USNA Gift and Museum Fund,” 

August 5, 2008, provides guidance for accepting and recording in-kind gifts at USNA. However, 

USNAINST 4001.5 does not provide specific guidance for recording and handling USNA 

Museum in-kind gifts. 


In-Kind Gifts Not Recorded in USNA Museum
Inventory System
The Museum Director did not record all of the in-kind gifts into the inventory system and a
complete inventory of all items has never been done. The Museum Director stated that not all
the in-kind gifts at the Museum were entered into its Filemaker Database System. The Museum
uses the Filemaker Database System to track its in-kind gift inventory. Many in-kind gifts at the
USNA Museum were still in boxes or on shelves (see Figures 1 and 2).

                          Figure 1. Boxed In-kind Gifts Not Entered 

                             Into the Filemaker Database System





                      Figure 2. In-kind Gifts on Shelves and Not Entered

                             Into the Filemaker Database System





                                                 14 

Naval Audit Service Report No. 055-C-94, “Fiscal Year 1993 Principal Financial Statements of
the United States Naval Academy Museum Fund,” June 30, 1994, recommended the USNA
Museum conduct a wall-to-wall inventory. Therefore, 10 years later, in November 2004, a
USNA internal auditor conducted a spot inventory of USNA Museum items. The November
2004 spot inventory report stated that adequate controls still do not exist to account for and
control all historical property.

In-kind gifts were not recorded because the Museum Director did not have policies and
procedures in place for recording in-kind gifts. In addition, since August 2005, when the Vice
Chief of Naval Operations consolidated policy-making at NHHC for all Navy museums, the
NHHC Director has not issued any policies and procedures to the USNA Museum for recording
in-kind gifts. As a result of our audit, the NHHC Director started developing policy for all Navy
museums for handling and recording in-kind gifts. However, the working draft Navy Museum
Manual did not establish USNA and NHHC duties and responsibilities over the USNA Museum.
Specifically, the working draft did not address the separate lines of authority over the USNA
Museum between the USNA Superintendent and the NHHC Director for accepting, recording,
and accounting for the Museum gifts. In addition, the working draft did not follow standards set
forth by the American Association of Museums (AAM). Navy Museums need to follow this
guidance to be an accredited museum.

As a result, the Museum in-kind inventory assets were vulnerable to loss and theft. In addition,
the Navy General Fund Balance Sheet, Note 10, “General PP&E” section, “Heritage Assets and
Stewardship Land,” may be understated because the Filemaker Database System information
was incomplete. Financial information from the Filemaker Database System is provided to
NHHC staff, who provides this information to the Defense Financial and Accounting Service for
inclusion in the Navy’s General Fund Balance Sheet, Note 10, “General PP&E” section,
“Heritage Assets and Stewardship Land.”

SFFAS No. 29 states that heritage assets should be quantified by units within major categories.
The appropriate level of aggregation and the units of measure for each major category should be
meaningful and determined by the preparer based on the entity’s mission, type of heritage asset,
and management of the asset. The Museum Director should conduct an inventory of the
Museum’s holdings and accurately record all its in-kind gifts into the NHHC inventory system.

In-Kind Gift Identification Numbers
The Museum Director needs to improve controls for recording in-kind gifts. For example, about
21,700 of nearly 53,000 in-kind gifts in the Museum’s Filemaker Database System did not have
an identification number or a complete identification number. Specifically, 20,239 inventory
items were not assigned a number, and 1,445 items did not have a complete number in the
Filemaker Database System.

An identification number is needed to locate in-kind gift items within the Museum. The
identification, or “accession,” number identifies the year the in-kind gift was received, the gift
number, and the subunit or unit number for categorizing the items. Furthermore, Museum staff
stated that an accession number is needed for every item at the Museum to comply with the
AAM standards and to receive their accreditation.

                                                15 

Many in-kind gifts had incomplete identification numbers because the Museum Director did not
have policies and procedures for recording in-kind gifts. As a result, the USNA Museum in-kind
gift inventory was vulnerable to loss and theft. The Museum Director should establish formal
policies and procedures that are consistent with NHHC policies and procedures for accepting and
recording in-kind gifts. The Museum Director should also assign complete identification
numbers to all in-kind gifts in their Filemaker Database System until the Museum staff starts
using the NHHC inventory system.

USNA Museum’s Inventory System Lacked Security Controls
and Did Not Use NHHC Inventory System
The Museum Director did not develop controls to prevent unauthorized modification or deletion
of in-kind gift data in its inventory system. The Museum Director stated that when in-kind gifts
are received, they should be entered into the Filemaker Database System. Further, he stated that
his staff and volunteers had access to the Filemaker Database System and had the capability to
modify or delete records. The ability to delete objects from the database should be limited to
specific USNA Museum staff. The Filemaker Database System has the ability to limit access
control levels to specific users; however, the USNA Museum staff acknowledged they did not
know how to set the access controls. The Museum Director also stated that he relies on part-time
volunteers to enter in-kind gifts into the Filemaker Database System. The lack of security
controls occurred because the Museum Director did not provide any oversight of the Filemaker
Database System. As a result, the Museum’s in-kind inventory is vulnerable to loss and theft.
The Museum Director should establish access and security controls to prevent unauthorized
modification or deletion of in-kind gift records in the Filemaker Database System.

Finally, USNA Museum personnel did not use the required NHHC inventory system, the
Department of Navy Heritage Asset Management System (DONHAMS), to track the in-kind gift
inventory. DONHAMS is the Navy’s property management system to record heritage assets.
NHHC oversees the USNA Museum jointly with the USNA. However, Chief of Naval
Operations Instruction 5450.330, “Mission, Function, and Task of U.S. Naval Academy,”
December 28, 2009, states that the NHHC Director manages the administrative and financial
business of the USNA Museum. The NHHC Director also oversees all other Navy Museums.
The USNA in-kind gift inventory was not recorded in DONHAMS because the NHHC Director
did not provide any guidance to the Museum Director and staff. As a result, the USNA Museum
in-kind gift inventory is vulnerable to loss and theft.

The USNA Museum Director should stop using the Filemaker Database System and start using
DONHAMS. The USNA Superintendent should oversee a performance review of the Museum
Director’s actions related to not recording all in-kind gifts, not assigning identification numbers
to gifts, not establishing controls to prevent unauthorized modification or deletion of in-kind gift
records, and not using NHHC inventory system, and take administrative action, as appropriate.
The USNA Superintendent should also direct the establishment of a time-phased plan, with
metrics, to correct the internal control weaknesses identified at the USNA Museum.




                                                 16 

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the U.S. Naval Academy Superintendent direct the U.S. Naval
Academy Museum Director to:

       a. Establish written policies and procedures for recording in-kind gifts that are
consistent with Naval Heritage and History Command policies and procedures.

       b. Provide additional oversight and status reports on recording in-kind gift
inventory.

       c. Conduct an inventory of the Museum in-kind gifts.

       d. Implement the Naval Heritage and History Command inventory system,
Department of Navy Heritage Asset Management System, and record all the in-kind gifts
into the system.

       e. Assign complete identification numbers to all in-kind gift records.

      f. Establish access controls to the inventory system to prevent unauthorized
modification or deletion of in-kind gift records.

USNA Superintendent Comments
ASN(M&RA) stated that the USNA Superintendent agreed with these recommendations and, in
conjunction with NHHC, had taken or planned to take the following actions.

   	 The Museum follows USNA Instruction 4001.5A, October 2010, and these policies and
      procedures are consistent with NHHC policies and procedures.
   	 Since the October 2010 USNA Instruction 4001.5A, all gifts to the Museum are
      processed through the Comptroller’s Office, Deputy for Finance, and SJA and accepted
      by the Superintendent or the Under Secretary of the Navy.
   	 During the renovation of Preble Hall, Museum staff began inventorying the collection in
      accordance with AAM standards. Once completed, the Museum plans to verify the
      inventory on a 5-year cycle, which is an AAM standard.
   	 NHHC is developing a Web-based version of the DONHAMS database. After
      connectivity is achieved, expected September 2012, Museum staff can update the
      DONHAMS database directly via the Internet. Until then, it will periodically
      synchronize the FileMaker Database inventory files with the DONHAMS database.
    Accession numbers will be assigned to all USNA Museum assets by September 30, 2012,
      which is the end of its self-study for the AAM accreditation process.
    Access to the inventory system is now limited to the Museum Director and the Museum
      Registrar. This access control is consistent with NHHC policies,




                                             17 

Our Response
The ASN(M&RA) comments on Recommendations B.1.c through B.1.f were responsive, and no
additional comments were required. The comments on Recommendations B.1.a and B.1.b were
not responsive. ASN(M&RA) stated that the Museum followed USNAINST 4001.5A for gift
acceptance. However, USNAINST 4001.5A did not have policies and procedures for the
Museum for inventorying in-kind gifts into the Museum records. In addition, the comments did
not state whether the Museum Director would establish written policies and procedures that
complied with the new Navy Museum Manual.

Furthermore, ASN(M&RA) did not state whether the Museum Director would provide status
reports on the number of in-kind gifts recorded and not recorded in the Museum inventory
systems. The status reports would include in-kind gifts recently received and in-kind gifts that
have not been previously recorded. The status reports would also include information on the
progress in assigning identification numbers to all in-kind gift records. We request that the
Assistant Secretary provide comments on the final report.

B.2. We recommend that the U.S. Naval Academy Superintendent:

        a. Oversee a performance review of the Museum Director for not recording in-kind
gifts, not assigning identification numbers to in-kind gifts, not establishing controls to
prevent unauthorized modification or deletion of in-kind gift records, and not using the
Naval History and Heritage Command inventory system, and take administrative action, as
appropriate.

     b. Direct the establishment of a time-phased plan, with metrics, to accomplish
Recommendations B.1.a through B.1.f.

USNA Superintendent Comments
ASN(M&RA) stated that the USNA Superintendent agreed and that USNA would perform
annual performance reviews for all employees. He also stated that USNA had developed a
timeline to implement Recommendations B.1.a through B.1.f.

Our Response
The ASN(M&RA) comments on Recommendation B.2.a were partially responsive, and the
comments on Recommendation B.2.b. were responsive. He did not state whether the USNA
Superintendent would oversee the Museum Director performance review. We request that the
Assistant Secretary provide comments on the final report.

B.3. We recommend that the Director, Naval Heritage and History Command:

       a. Complete the draft Navy Museum Manual.

      b. Require the U.S. Naval Academy Museum Director to use the Naval Heritage
and History Command inventory system, the Department of Navy Heritage Asset
Management System.


                                                18 

       c. Perform additional oversight of the U.S. Naval Academy Museum operations to
ensure that the U.S. Naval Academy Museum Director is following the Naval Heritage and
History Command policies and procedures.

Director, NHHC, Comments
ASN(M&RA) responded for the Director, NHHC, stating that the Director, NHHC agreed and
that NHHC had completed an extensive review and comment process for the draft Navy Museum
Manual, which is scheduled to be completed in March 2012. In addition, ASN(M&RA) stated
that NHHC was developing a Web-based version of the DONHAMS database, and Internet
connectivity was expected by September 2012. Until then, the Museum planned to periodically
synchronize its FileMaker Database inventory files with the DONHAMS database.

Furthermore, ASN(M&RA) stated that the Museum System Program Office had reviewed
documents prepared by the Museum Director for the USNA Museum application for
accreditation to AAM, which accepted the application. Additionally, the Director, NHHC and
the Museum System Program Office were conducting monthly conference calls with Museum
Directors to discuss new policies and procedures and other matters of interest to the Museum
Directors.

Our Response
The ASN(M&RA) comments were responsive, and no further comments were required.




                                              19 

Finding C. Unauthorized Acceptance of Gifts
and Failure to Inventory Gifts
The USNA Deputy for Finance (Deputy) improperly accepted more than $184,000 of in-kind
(nonmonetary) gifts from an alumnus from 2005 through 2007 without obtaining the proper
authorization. In addition, he did not inventory the gifts. This occurred because the Deputy
bypassed the Navy’s gift receipt processes and USNAINST 4001.5, “Acceptance of Gifts for the
U.S. Naval Academy Gift and Museum Fund,” August 5, 2008, was inadequate. The
unauthorized acceptance of these in-kind gifts gives the appearance of impropriety and risks
damaging the USNA’s reputation. Further, the failure to inventory the gifts increases the risk of
their loss or theft.

USNA Deputy Improperly Accepted In-Kind Gifts
The Deputy improperly accepted more than $184,000 of in-kind gifts from an alumnus from 2005
through 2007 without obtaining the proper authorization. In addition, the Deputy failed to
inventory the gifts. SECNAVINST 4001.2J, “Acceptance of Gifts,” August 12, 2009, states that
the SECNAV is the acceptance authority for all gifts of real property and other gifts with a value
in excess of $60,000, and the USNA Superintendent can accept gifts not to exceed $60,000. The
SECNAV did not delegate the acceptance authority below the USNA Superintendent. Therefore,
the Deputy did not have authorization to accept the gift from the alumnus. See Table 2 for the list
of gifts inappropriately accepted by the Deputy.

             Table 2. Gifts Inappropriately Accepted by the Deputy for Finance
                       Item                Description       Quantity       Value
                    Waterford               Stemware           754         $72,505
                     Crystal               Serveware            92         29,174
                                           Chandeliers           8         38,515
               Simon Pierce Pottery        Small Vases          12           1,500
                                           Large Vases          14          2,100
                     Baccarat                Glasses            22           2,310
                     Crystal                  Vase               1            900
                                             Bowls               2          1,600
                Alcoholic Beverages      Bottles of Wine        29           3,657
                      Bibles             Protestant Bible      312          8,733
                                          Catholic Bible       165           4,618
                   Daum Crystal               Vase               1          5,000
                     Artwork                Paintings            3          14,100
                Total Value                                               $184,712

The Deputy did not obtain proper authorization from the SECNAV or the USNA Superintendent
when receiving these gifts. In addition, the Deputy did not inventory the gifts upon receipt and
enter the gifts into the USNA property records. When USNA officials learned that these gifts

                                                20 

from the alumnus were not processed, the USNA Superintendent decided to treat them as one
gift and submitted it to the Under Secretary of the Navy for approval. SECNAVINST 4001.2J
states that when a donor makes a pledge or offer of a future gift, whether a one-time gift or a gift
made in installments, the total cumulative amount of the future gift determines the appropriate
acceptance authority.

These conditions occurred because the Deputy bypassed the normal gift receipt process. In
addition, USNAINST 4001.5 was inadequate because it improperly delegated acceptance
authority to individuals other than the USNA Superintendent. This guidance conflicts with
SECNAVINST 4001.2J, which only allows the USNA Superintendent to accept gifts under
$60,000. Furthermore, SECNAVINST 4001.2J only authorizes eight individuals to delegate
their acceptance authority and the USNA Superintendent is not one of these individuals. The
USNA Superintendent has the authority to accept gifts under $60,000, but does not have the
authority to delegate his acceptance authority. The Deputy’s acceptance of gifts may appear
improper and risk damaging the USNA’s reputation. Further, the failure to inventory the gifts
increases the risk of their loss or theft.

Corrective Management Actions
During our audit, the USNA Superintendent issued an action memorandum, “Gift to the United
States Naval Academy (USNA); Crystal and Glassware for Buchanan House,” March 22, 2011.
The memorandum requested the Director, Navy Staff, to accept the crystal and glassware as gifts
for the Buchanan House. As of July 27, 2011, the Director, Navy Staff had not accepted the
gifts. In addition, the USNA Superintendent issued USNAINST 4001.5A, “Acceptance of Gifts
to the United States Naval Academy,” October 14, 2010, which removed gift delegation
authorities from USNA officials other than the USNA Superintendent and established policy for
soliciting, accepting, and processing gifts to the USNA. Clarifying the policy should help
prevent future unauthorized acceptance of gifts; however, the USNA Superintendent should
revise USNAINST 4001.5A to include performing periodic, independent, quality assurance
reviews to verify that USNA personnel are complying with the policy.

Recommendations, Management Comments, and
Our Response
C. We recommend that the U.S. Naval Academy Superintendent revise USNAINST
4001.5A, “Acceptance of Gifts to the United States Naval Academy,” October 14, 2010, to
include performing periodic, independent, quality control reviews to verify that U.S. Naval
Academy personnel comply with the policy.

USNA Superintendent Comments
ASN(M&RA) stated that the USNA Superintendent agreed and that USNA had integrated
periodic, independent quality assurance reviews into the USNA Inspector General annual
command evaluation program. Further, he stated that the Department of the Navy, Assistant for
Administration, had reviewed the USNA gift acceptance process and recommended annual
reviews to ensure compliance.




                                                 21 

Our Response
The ASN(M&RA) comments were responsive, and no further comments were required.
Although USNAINST 4001.5A will not be revised; the proposed actions, if implemented, are an
acceptable alternative and meet the intent of the recommendation.




                                            22 

Finding D. Inappropriate Acceptance and Use of
Sponsorship Funds
The USNA NABSD Director inappropriately accepted $343,208 in corporate sponsorship funds
from the Naval Academy Athletic Association (NAAA) from April 2007 through March 2010.
In addition, the NABSD Director improperly spent $189,265 of the funds on activities that were
not for the USNA midshipmen’s benefit. The NABSD Director retained the remaining
unauthorized funds in the USNA NABSD operating account. This occurred because the USNA
Deputy for Finance (Deputy) did not provide adequate oversight of USNA NABSD operations.
As a result, the NABSD Director held nearly $153,943 in funds the USNA NABSD was not
allowed to possess.

USNA Received Corporate Sponsorship Funds
The NAAA transferred a total of $343,208 in corporate sponsorship funds to USNA NABSD
from April 2007 through March 2010 (see Table 3).

                     Table 3. Corporate Sponsorship Fund Transfers
                       Date                         Amount
                        April 12, 2007                    $94,970
                        March 21, 2008                     96,882
                        April 6, 2009                     103,856
                        March 30, 2010                     47,500
                           Total                         $343,208

The Deputy and NABSD Director maintained a contingency account for the $295,708 in
sponsorship funds transferred to the USNA through April 6, 2009, in an accounting system and
bank account outside the supervision and control of the Federal Government. The NABSD
Director improperly spent $189,265 on activities that were not for the USNA midshipmen’s
benefit. In September 2009, the NABSD Director transferred the remaining sponsorship funds
of $106,443 to the official USNA NABSD operating account, which was supervised and
controlled by the Federal Government. In March 2010, the NABSD Director received the
$47,500 in corporate sponsorship funds and, in April 2010, deposited the funds into the operating
account. These funds were recorded in the NAFI accounting system. The remaining $153,943
total represents the amount of corporate sponsorship funds in USNA NABSD’s possession.

NABSD Director Not Authorized to Accept
Sponsorship Funds
The NABSD Director’s acceptance of $343,208 in corporate sponsorship funds from NAAA
from April 2007 through March 2010 was inappropriate because NABSD did not have statutory
authority to receive those funds. The 31 U.S.C. § 3302, “Custodians of Money,” requires
Government officials receiving money for the Government from any source to deposit it in the
U.S. Treasury as soon as practical. Further, it requires that the Government official receiving the


                                                23 

funds have statutory authority to receive the funds. As a result, sponsorship funds received by
USNA NABSD, which did not have statutory authority, are considered miscellaneous receipts
and are to be deposited in the U.S. Treasury.

Activities Not for the USNA Midshipmen’s Benefit
Of the $343,208 in corporate sponsorship funds received, the NABSD Director spent $189,265
on activities that were not for the USNA midshipmen’s benefit. Instead, he spent the funds on
various functions and events, such as catered, home football games; tailgate events; support for a
Superintendent’s dinner; receptions and pizza meals for contractors; holiday parties; and golf
outings for USNA NABSD employees. These functions and events did not benefit USNA
midshipmen.

Oversight of NABSD Operations Was Inadequate
This misuse of funds occurred because the Deputy did not provide adequate oversight of USNA
NABSD operations. The Deputy and NABSD Director issued a memorandum, “Establishment
of NABSD Contingency Account,” April 10, 2007, that addressed the use of corporate
sponsorship funds. The memorandum directed that corporate sponsorship funds “be accounted
for and expended in such a manner as to allow maximum flexibility to NABSD in the context of
conducting business in an academic institution.” The memorandum stated corporate sponsorship
funds could be used for the following NABSD activities:

      initiatives and events that promote NABSD to internal and external activities;
      procurement of promotional gifts that help to promote NABSD to internal and external
       customers;
      NABSD-sponsored events, including social events, that promote team building; and
      other expenses approved by the Deputy or NABSD Director on a case-by-case basis.

The NABSD Director spent funds on activities that did not benefit the midshipmen. The
memorandum on establishing a contingency account and allowing maximum flexibility in
spending the funds contradicted BUPERSINST 1710.11C, “Operation of Morale, Welfare,
Recreation (MWR) Programs,” March 3, 2003, on use of corporate sponsorship funds and should
be rescinded. BUPERSINST 1710.11C states that corporate sponsorship funds should be used
within the NAFI program for the benefit of midshipmen and that the funds should underwrite the
NAFI program or event.

Holding Unauthorized Funds
The NABSD Director improperly held $153,943 that USNA NABSD was not authorized to
have. The NABSD Director did not comply with 31 U.S.C. § 3302, “Custodians of Money,”
which requires a Government official receiving money for the Government from any source to
deposit the money in the U.S. Treasury. As of April 2011, the NABSD Director was still
holding the funds. The Superintendent should deposit the remaining $153,943, plus any interest
earned, in the U.S. Treasury.




                                                24 

Corrective Management Actions
The USNA Superintendent issued USNAINST 7010.3, “United States Naval Academy (USNA)
Nonappropriated Fund (NAF) Policy,” March 1, 2011, which aligns USNA NAF policy with
DoD and Department of the Navy policy. USNAINST 7010.3 states that NAFs cannot be used
to pay for employees not performing duties directly related to the NAFI function or mission and
that NAF funds are only to be used for the benefit of the midshipmen.

USNA officials submitted a NAF report on the five NAFIs to the ASN(M&RA) on March 1,
2011. The report provides the required information on USNA NAFIs, in accordance with DoDI
1015.15, “Establishment, Management, and Control of Nonappropriated Fund Instrumentalities
and Financial Management of Supporting Resources,” October 31, 2007. The report also
includes the independent auditor’s opinion on the NABSD financial statements for FY 2010.

USNA officials drafted an amendment to 10 U.S.C. that would add section 6981, “Naval
Academy Athletic Association: Support of Athletic Programs.” Section 6981, if adopted, would
give the USNA statutory authority to receive funds from the NAAA that were generated by the
athletic and physical fitness programs of the USNA and any other activity of the NAAA, and to
retain and use such funds to further the mission of the USNA.

Because of our audit, on May 26, 2011, the USNA officials canceled the contingency account
that was established in the memorandum, “Establishment of NABSD Contingency Account,”
April 10, 2007. The memorandum stated that all authority for maintenance of a NAF or NABSD
contingency account was canceled.

Recommendations, Management Comments, and
Our Response
D. We recommend that the U.S. Naval Academy Superintendent:

     1. Perform periodic, independent, quality control reviews to ensure that U.S. Naval
Academy personnel are not inappropriately accepting corporate sponsorship funds.

       2. Deposit the remaining $153,943, plus any interest earned, in the U.S. Treasury.

USNA Superintendent Comments
ASN(M&RA) stated the USNA Superintendent agreed with Recommendation D.1 and that
USNA NAFIs no longer accepted sponsorship proceeds from NAAA. In addition, ASN(M&RA)
stated that the Superintendent disagreed with Recommendation D.2 and that USNA had prepared and
submitted a proposal to Congress that would clarify USNA’s authority to use NAAA to secure
sponsorship deals. Further, ASN(M&RA) stated that the USNA Superintendent suggested that
the proceeds be processed as a gift from NAAA, and if USNA was not allowed to accept these
funds as a gift, they should be returned to NAAA.




                                              25 

Our Response
The ASN(M&RA) comments on Recommendation D.1 were responsive, and no further
comments were required. However, the comments on Recommendation D.2 were not
responsive. The $153,943 was not a gift from NAAA as defined in 10 U.S.C. § 6973, “Gifts,
Bequests, and Loans of Property: Acceptance for Benefit and Use of Naval Academy.” Section
6973(a) authorizes the Secretary of the Navy to accept, hold, administer, and spend any gift or
bequest of personal property other than money that is made on the condition that it be used for
the benefit of, or for use in connection with, the USNA or the USNA Museum. Section 6973(a)
states that bequests of money are to be deposited in the Treasury in the fund called “United
States Naval Academy Gift and Museum Fund.” Under Section 6973(a), the Secretary of the
Navy has the authority to disburse funds deposited pursuant to Section 6973(a) for the benefit or
use of the USNA, including the USNA Museum. The USNA did not have independent statutory
authority to retain the $153,943 received from NAAA as a gift. We request that ASN(M&RA)
provide comments on the final report.




                                               26 

Finding E. Review of USNA Foundation
Monetary Gifts for Prohibited Sources Was
Not Performed and Gifts Over $60,000 Were
Not Approved
The USNA Deputy and USNA Comptroller did not review monetary gifts received from the
USNA Foundation8 for prohibited sources. In addition, the USNA SJA did not review monetary
gifts to determine whether they were received from prohibited sources. The Deputy and
Comptroller requested and received 30 disbursements from the USNA Foundation (Foundation)
for $60,000 each to avoid obtaining the required Under Secretary of the Navy approval. The
multiple disbursement requests of $60,000 appear to bypass all established oversight controls.
This occurred because the USNA and the Foundation memorandum of understanding did not
require the Foundation to review gifts and determine whether they were received from prohibited
sources or require the Foundation to provide the donor source. In addition, the Comptroller had
the ability to request funds from the Foundation.

As a result, the USNA might have indirectly received gifts from prohibited sources through the
Foundation. Gifts from a prohibited source could reflect unfavorably on USNA officials and
their ability to carry out responsibilities fairly and objectively. In addition, acceptance without a
review for prohibited sources could create the appearance of an improper endorsement of the
donor. Furthermore, it appears that the Comptroller was circumventing SECNAV policy.

Review of the Source of Gifts Not Performed
The Deputy and Comptroller did not review gifts received from the USNA Foundation for
prohibited sources. In addition, the SJA did not review monetary gifts to determine whether they
were received from prohibited sources. USNA procedures did not require the Foundation to
provide the donor source. Therefore, the Foundation may be acting as a conduit for USNA by
accepting gifts from prohibited sources that the USNA would not be permitted to receive.

SECNAVINST 4001.2J, “Acceptance of Gifts,” August 12, 2009, states that although
foundations and other nonprofit organizations may provide valuable support to the Navy, they
should not be used as conduits to make indirect gifts that Navy gift acceptance policies would
not permit if offered directly to the Navy. SECNAVINST 4001.2J also states the acceptance of
gifts from prohibited sources may give the appearance of influencing official decision-making or
actions of the Navy. Before accepting a gift of more than $10,000 from a prohibited source, the

8
  In 1996, the USNA Superintendent requested that various entities join together to establish a single fund-raising
entity to solicit private funds on behalf of the USNA. As a result, the Foundation and Alumni Association entered
into an operating agreement in December 1999. Under the operating agreement, the Foundation is responsible for
the solicitation and receipt of all private financial gifts. Gifts requested from the USNA Foundation include gifts
from the USNA Alumni Association. Both the USNA Foundation and the Alumni Association are independent, not-
for-profit corporations. However, both share a single president and CEO, and both operate as a fully integrated
organization in support of the USNA and its mission.



                                                        27 

USNA Office of General Counsel or the Navy/Marine Corps Judge Advocates must consult with
the Assistant General Counsel for Ethics to determine whether the donor is involved in any
claims, procurement actions, litigation, or other matters involving the Department of the Navy
that might cause the acceptance authority to decline an offered gift.

The Foundation may be acting as a conduit for USNA by accepting gifts from prohibited sources
the USNA would not permit if offered directly to USNA. The Foundation is an independent
entity and is not required to follow USNA prohibited source regulations. Because the
Foundation did not identify the gift sources, it may have given the USNA donations from
prohibited sources without USNA officials’ knowledge.

During our audit, we identified prohibited sources that donated to the Foundation. The “USNA
Foundation Donor Report – 2009” lists contributing donors to the Foundation. SECNAVINST
4001.2J defines a prohibited source as an entity doing business with the Department of the Navy.
We identified 13 donors listed on the Foundation Donor Report as entities doing business with
the Department of the Navy. Therefore, these donors would be considered prohibited sources by
USNA. The Comptroller stated that USNA does not perform an ethics review for gifts received
from the Foundation. Furthermore, the SJA stated that gifts to the Foundation would not be
reviewed for prohibited sources by his Office because they are not gifts to the USNA.

These conditions occurred because the USNA and the Foundation memorandum of
understanding did not require the USNA Foundation to review gifts and determine whether they
were received from prohibited sources or to provide the donor source to the USNA. As a result,
the USNA might have indirectly received monetary gifts from prohibited sources through
transfers from the USNA Foundation.

Gifts from a prohibited source may reflect unfavorably on the USNA’s ability to carry out
responsibilities and duties fairly and objectively. In addition, the acceptance without a review
for prohibited sources could create the appearance of an improper endorsement of the donor.
The USNA Superintendent should develop a memorandum of understanding between the USNA
and the Foundation to ensure donations are reviewed to determine whether they were received
from prohibited sources and to ensure donor sources are provided to the USNA.

Gifts to USNA Valued at More Than $60,000
The Deputy and Comptroller requested and received 30 disbursements of $60,000 each from the
USNA Foundation. The requests appeared to circumvent SECNAVINST 4001.2J, which states
that the USNA Superintendent has the authority to accept gifts of $60,000 or less. For an
amount over $60,000, the Under Secretary of the Navy must approve the gift. Therefore, it
appears that the Deputy and Comptroller were purposely requesting gifts in installments of
$60,000 or less to avoid obtaining the Under Secretary of the Navy approval. SECNAVINST
4001.2J requires that “When a donor makes a pledge or offer of a future gift, whether a one-time
gift or a gift made in several installments, the total cumulative amount of the future gift
determines the appropriate acceptance authority.” Therefore, the Under Secretary of the Navy
should be the acceptance authority for a single or cumulative gift valued at more than $60,000.




                                               28 

During 2010, the Foundation provided most of the USNA monetary gifts that required only the
USNA Superintendent’s approval. To receive the monetary gifts from the USNA Foundation,
the Deputy or Comptroller had to submit a “Request for Disbursement Form.” This form
indicates the purpose of the request, where the funds are to be deposited at the USNA, and from
which accounts the funds should be withdrawn at the Foundation. The USNA made 30 gift
requests to the USNA Foundation at the acceptance threshold of $60,000, totaling $1.8 million
in 2010. Many of these monetary gift requests were for the same recipient and were made in
several installments. For example, the Academic Center and the Admissions Outreach each
received four gifts of $60,000 each for a total of $240,000 in 2010. The USNA requested these
installments either on the same day, within weeks, or within months of each other.

For example, on January 26, 2010, the USNA deposited three donations for $60,000 each from
the Foundation. Two of the donations were for the Center for Ethical Leadership. In another
example, on May 13, 2010, two gifts of $60,000 each were given to Admissions Outreach. Both
examples show the intent to bypass controls. They show that the USNA purposely requested
gifts in $60,000 installments to avoid obtaining the Under Secretary of the Navy approval. No
requests were over $60,000. (See Appendix F for the recipient, deposit dates, and amounts.)
This occurred because the Comptroller had the ability to request funds from the Foundation. As
a result, the Comptroller appeared to have circumvented SECNAV policy. The USNA
Superintendent should follow the SECNAV policy and cease splitting donation requests to avoid
proper approval.

Recommendations, Management Comments, and
Our Response
E. We recommend that the U.S. Naval Academy Superintendent:

       1. Develop a memorandum of understanding between the U.S. Naval Academy and
the U.S. Naval Academy Foundation to ensure donations are reviewed to determine
whether they were received from prohibited sources and to ensure donor sources are
provided to the U.S. Naval Academy.

      2. Follow the procedures in SECNAVINST 4001.2J, “Acceptance of Gifts,”
August 12, 2009, for accepting donations from the U.S. Naval Academy Foundation.

      3. Cease splitting donation requests to avoid obtaining Under Secretary of the Navy
approval for cumulative gifts totaling more than $60,000.

USNA Superintendent Comments
ASN(M&RA) stated the USNA Superintendent agreed, in part, with Recommendation E.l and
that USNA and the USNA Foundation had updated the memorandum of understanding, which
was under review and expected to be signed in November 2011. To improve the coordination
between the USNA and USNA Foundation, the memorandum of understanding was to provide
for a USNA liaison to the Foundation to increase visibility of the donor source.




                                               29 

Further, ASN(M&RA) stated that USNA would continue to comply with SECNAVINST
4001.2J by ensuring that gifts from prohibited sources received heightened scrutiny when those
gifts were made directly to the USNA. He also stated that all gifts from prohibited sources given
directly to the USNA were coordinated with the USNA Comptroller, Deputy for Finance, SJA,
Superintendent, and the Secretariat, when applicable, before acceptance. In addition, he stated
that although there was no automatic prohibition on gift acceptance from prohibited sources,
USNA recognized that increased scrutiny and coordination were warranted.

ASN(M&RA) stated that the USNA Superintendent disagreed with Recommendation E.2 and
was adhering to USNAINST 4001.5A to ensure compliance with SECNAVINST 4001.2J. He
agreed to increase communication and transparency of donor source for gifts made to the USNA
Foundation, but disagreed with performing prohibitive source reviews under SECNAVINST
4001.2J for gifts made directly to the USNA Foundation even if ultimately these funds made
their way to the USNA. He stated that the USNA Foundation was not used as a conduit for
accepting gifts that would not otherwise be acceptable if made directly to the Navy. It would be
inappropriate to perform a prohibitive source analysis for gifts made from donors directly to the
Foundation, which is a private organization. However, increased coordination and
communication with the USNA Foundation through the USNA liaison would ensure that the
USNA Foundation did not accept gifts the USNA would ultimately be prohibited from accepting.

In addition, ASN(M&RA) stated that the USNA Superintendent disagreed with
Recommendation E.3 and the auditor conclusion that the USNA Comptroller was intentionally
splitting donations to avoid obtaining Under Secretary of the Navy approval for cumulative gifts
of more than $60,000. The intent of the USNA Comptroller in drawing smaller amounts of funds
was to ensure only the appropriate amount of money was drawn to meet current obligations of
the USNA programs. However, to avoid any appearance of gift splitting, the USNA initiated a
new practice in which the Foundation now offers annual gifts for Restricted Endowments,
Restricted Funding, Unrestricted Funding, and Athletic and Scholarship funding. These offers of
gifts are forwarded to the Secretary of the Navy for acknowledgment and acceptance to prevent
the appearance that the USNA was splitting donations.

Our Response
The ASN(M&RA) comments on Recommendations E.1 and E. 2 were partially responsive. The
establishment of a USNA liaison should improve coordination and communication between the
USNA and the USNA Foundation and increase visibility of the donor source. However, the
comments did not state whether a prohibited source review would be conducted on gifts from the
USNA Foundation. We request that the Assistant Secretary provide comments on the final
report.

The ASN(M&RA) comments on Recommendation E.3. were responsive, and no further
comments were required. Although the USNA Superintendent disagreed with our
recommendation, the proposed actions, if implemented, would meet the intent of the
recommendation.




                                               30 

Appendix A. Scope and Methodology
We conducted this performance audit from September 2010 through September 2011 in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed the USNA NABSD 2008 contract for a short motion picture and six commercials.
Specifically, we:

   	 Reviewed the sole source justification prepared by the Deputy of Finance and other
      documentation related to the decision for a sole-source award. We also interviewed SJA
      staff and reviewed the contract file to obtain evidence of a legal review. In addition, we
      reviewed DoD, Navy, and USNA policies regarding contract authority and the use of
      contracts other than Government contracts.
   	 Examined documentation for seven wire transfers totaling $3,507,816 withdrawing funds
      from NABSD’s nonappropriated operating bank account and crediting the contractor’s
      bank account. We matched these wire transfers to email correspondence from the
      contractor.
   	 Reviewed a copy of the short motion picture to verify the existence and adequacy of the
      short motion picture. We also compared the cost of short motion picture and television
      commercials to the short motion picture and television commercials that were produced
      in 2006.
   	 Reviewed email correspondence between the Deputy of Finance and the NABSD 

      Director regarding the contract. 

We also reviewed the cost estimates, bids, and contract clauses for the two additional contracts
awarded during 2008 and 2009. We also evaluated the request for proposals and bid analysis for
one of the two contracts. We interviewed the new contracting officer appointed in February
2010 to obtain an understanding of the changes made to the USNA NABSD contracting process.
In addition, we reviewed the new USNAINST 7010.2B, “United States Naval Academy (USNA)
Nonappropriated Fund (NAF) Procurement Policy,” July 28, 2010, and reviewed USNA NABSD
contracting and purchase order procedures.

We reviewed gift fund processes at USNA, its nonprofit organizations, and its nonappropriated
fund instrumentalities (NAFIs). We initially sampled donations of monetary and in-kind gifts
accepted at USNA from January 1, 2010, through September 30, 2010. The universe for
monetary gifts consisted of 308 items totaling $4.8 million. We selected a non-statistical sample
of 20 of the 308 monetary gifts totaling $346,918. The universe for in-kind gift donations
consisted of 98 items valued at $24.1 million. We selected a non-statistical sample of six in-kind
gift donations valued at $86,476. These six gifts were the total in-kind gift donations received in
2010 for the Museum. We sampled these donations to ensure the USNA was properly accepting,
recording, and depositing the donation according to the donor’s intent.



                                                31 

We subsequently expanded our monetary donations and in-kind gift testing through
December 31, 2010, to determine the effects from changes the USNA implemented because of
our audit. From January 1, 2010, through December 31, 2010, USNA received 381 monetary
gifts, totaling $5.7 million and 153 in-kind gifts valued at $25.1 million. We selected three
additional monetary donations, totaling $67,150.

We reviewed the in-kind gifts, valued at $184,712, that were received from an alumnus and had
not been recorded in the USNA property records to follow up on whether these gifts had been
properly accepted by the USNA.

We also evaluated, for 2010, the sufficiency of new policies, procedures, controls, and staffing to
prevent or detect:

      the recurrence of the substantiated allegations identified in the Naval Inspector General
       (IG) report, “Senior Official Case 200801937; Alleged Misuse of Gift Funds and Non-
       appropriated Funds (NAF),” November 17, 2009; and
      possible compliance issues within new gift funds and NAFs.
We reviewed four corporate sponsorship transfers to USNA NABSD from NAAA from April
2007 through March 2010. We traced these transfers to NABSD accounting records.

We reviewed a total of 23 monetary gifts totaling $414,068, from the USNA Foundation, USNA
Alumni Association, and private donors for compliance with DoD, Navy, and USNA regulations
for donor designations, prohibited sources, and restrictions. We also examined 30 disbursements
to the USNA at the $60,000 limit.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
We did not use any technical assistance in the performance of this audit.

Prior Coverage on Gift Policy and Procedures
During the last 5 years, the Government Accountability Office (GAO), DoD Inspector General
(DoD IG), Naval Inspector General, and the Commander, Navy Installations Command have
issued four reports discussing proper gift and NAF procedures, NAFI operations, and contracting
practices. Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports. Naval
Inspector General and the Commander, Navy Installations Command reports are not available
over the Internet.

GAO
GAO Report No. GAO-09-486R, “Financial Management: DOD Needs to Clarify Its General
Gift Fund Policies to Provide for Effective Oversight,” May 27, 2009



                                                32 

DoD IG
DoD IG Report No. D-2010-081, “Army Use of Time-and-Materials Contracts in Southwest
Asia,” August 27, 2010

Naval Inspector General Report
Naval Inspector General Report, “Senior Official Case 200801937; Alleged Misuse of Gift
Funds and Nonappropriated Funds (NAF),” November 17, 2009

Commander, Navy Installations Command
Commander, Navy Installations Command, “Fiscal Oversight Review of the United States Naval
Academy Non-Appropriated Fund Instrumentality,” April 9, 2010




                                             33 

Appendix B. Nonprofit Organizations and
Nonappropriated Fund Instrumentalities
Supporting the U.S. Naval Academy
The following nonprofit organizations support the USNA in meeting its mission.

Naval Academy Athletic Association (NAAA)
The Naval Academy Athletic Association (NAAA) promotes and finances the USNA’s
intercollegiate athletic program. The NAAA is responsible for the coaching, equipping, travel
and lodging, promotion, ticketing, and administrative support for all 32 varsity sports. The
NAAA also operates and maintains Navy-Marine Corps Memorial Stadium, the USNA golf
course, and other athletic facilities for the USNA. The NAAA works actively with outstanding
high school student-athletes who are interested in applying to the USNA. Varsity coaches recruit
young men and women according to the rules and regulations laid down by the National
Collegiate Athletic Association.

USNA Alumni Association
The USNA Alumni Association was incorporated in 1947. The mission of the USNA Alumni
Association is to serve and support the United States, the Naval Service, the USNA, and its
alumni: by furthering the highest standards at the Naval Academy; by seeking out, informing,
encouraging, and assisting outstanding, qualified young men and women to pursue careers as
officers in the Navy and Marine Corps through the USNA; and by initiating and sponsoring
activities that related to the history, traditions, memories, and growth of the USNA.

USNA Foundation
The USNA Foundation was incorporated in 1944 solely for the purpose of providing private
support to the USNA, primarily to meet the needs of the Brigade of Midshipmen. It is the
mission of the USNA Foundation

       To support, promote, and advance the mission of the Naval Academy by working in
       conjunction with the Naval Academy leadership to identify strategic institutional priorities
       and by raising, managing, and disbursing private gift funds that provide a margin of
       excellence in support of the nation’s premier leadership institution.

Nonappropriated Fund Instrumentality
A NAFI is a fiscal entity of the U.S. Government that is fully or partially supported by
nonappropriated funds. The USNA established the following NAFIs on December 10, 2010, so
they reflect current Navy policy and guidance:

   	 Naval Academy Business Services Division (NABSD). NABSD operates 20 separate
      NAF activities in direct support of the Brigade of Midshipmen and the USNA as the
      Navy’s undergraduate institution. These activities are required to support midshipmen in
      the official performance of their duties or to provide the services for faculty, staff,
      alumni, and visitors normally found at colleges and universities across the country.


                                                       34 

   NABSD also provides food service support to midshipmen during both liberty and non-
   liberty hours. NABSD functions in a similar manner to campus support services
   organizations at civilian institutions of higher education.

	 Midshipmen Welfare Fund. The Midshipmen Welfare Fund is responsible for assisting
   the Brigade of Midshipmen by providing opportunities for structured extra-curricular
   involvement in recreational or other constructive activities at the individual, company or
   battalion level. The Midshipmen Welfare Fund functions in a similar manner to campus
   support organizations, including student unions and recreational organizations, at civilian
   institutions of higher education.

	 Midshipmen Ration Account. The Midshipmen Ration Account is the account used to
   manage the subsistence allowance prescribed by the Secretary of Defense for
   midshipmen. The nonappropriated funds in this account are used to procure the food and
   food products necessary to provide for the subsistence of midshipmen.

	 Naval Academy Preparatory School Activity Fund. The Naval Academy Preparatory
   School Activity fund provides for goods and services required by each midshipman
   candidate, such as textbooks, computer equipment, and Naval Academy Preparatory
   School Activity personal physical training gear. In addition, the Naval Academy
   Preparatory School Activity fund provides opportunities for structured extracurricular
   involvement in recreational or other constructive activities at the individual or battalion
   level.

	 Candidate Guidance Fund. The Candidate Guidance Fund is the sole nonappropriated
   fund used to support the Dean of Admissions’ mission. The fund acts as a collection and
   disbursing agent for various initiatives sponsored by the Office of Admissions for
   expenses incurred in connection with all Admissions Strategic Outreach activities
   through the collection and disbursement of program registration fees. Sponsored
   activities using the Candidate Guidance fund include the USNA Summer Seminar
   Program; Science, Technology, Engineering and Math Program; and other Strategic
   Outreach programs.




                                            35 

Appendix C. Update on Substantiated
Allegations From the Naval Inspector
General Report
Allegation 1
The former USNA Superintendent misused Government gift funds by authorizing a subordinate
to expend those funds for gifts and entertainment that was not in compliance with GAO
guidelines and various USNA Instructions addressing policy and procedures for administering
the USNA Gift Fund program.

Actions Taken
The former Command Master Chief, who was responsible for entertainment, was replaced by a
new Command Master Chief.

USNA drafted a new instruction, USNA Draft Instruction 7000.4, “Guidelines on the Use of Gift
Funds in Furtherance of the USNA Mission.” This instruction requires necessary and reasonable
conditions to be met to use Gift Funds. Necessary expenses are expenses for which the
“USNA’s mission cannot be accomplished as satisfactorily or as effectively without such
expenditure.” Reasonable expenses are expense for which “the general public would not
perceive the amount of the expenditure and/or the per capita benefit to be wasteful or
extravagant.” To satisfy the “reasonableness” rule, an expenditure is permissible if it meets the
following criteria: (1) Cost Per Person: Where a meal is provided, the cost of the meal should
not exceed 200 percent of the local per diem rate per person. (2) Hosting Ratios: An appropriate
ratio of authorized guests to DoD, Department of the Navy, USNA personnel is to be observed at
officially hosted functions where Gift Funds are used. Midshipmen do not count in the hosting
ratio calculation.

Allegation 2
The former Superintendent improperly accepted personal gifts not in compliance with the
Standards of Ethical Conduct, 5 C.F.R. § 2635.202, which addresses gifts from outside sources.

Actions Taken
The former USNA Superintendent received pendant necklaces for the 2007 and 2008 football
seasons. After being informed that the acceptance of these pendant necklaces may be
inappropriate, the former USNA Superintendent turned the pendant necklaces over to the SJA,
who has held them since, pending a determination on their disposition. The necklaces were in
their original boxes and had not been worn. The former USNA Superintendent did not want to
purchase the pendant necklaces.




                                               36 

Allegation 3
The USNA Deputy for Finance improperly established and used an “off-the-books”
nonappropriated fund (NAF) Contingency Fund, which was not in compliance with DoD and
Navy policy on NAF expenditures, Secretary of the Navy (SECNAV) and USNA gift policies
and procedures, and the Miscellaneous Receipts statute.

Actions Taken
In September 2009, NABSD transferred the remaining corporate sponsorship funds of $106,443
to the official NABSD operating account. This account is supervised and controlled by the
Federal Government. The $106,443 was recorded in the NAFI accounting system.

Allegation 4
The USNA Deputy for Finance improperly executed contracting and financial actions arising
from an improperly constituted and funded video production contract not in compliance with
DoD and Navy policy on NAF expenditures and contracting procedures and the Standards of
Ethical Conduct.

Actions Taken
NABSD hired a warranted contracting officer and also developed a new procurement manual,
USNA Instruction 7010.2B, “United States Naval Academy (USNA) Nonappropriated Fund
(NAF) Procurement Policy,” July 28, 2010. The warranted officer handles contracts with the
NABSD. The new NABSD Procurement Manual provides contracting procedures and states,
“The USNA Counsel or the USNA Staff Judge Advocate (SJA) will provide legal support and
assistance to USNA NAF contracting efforts.”

Allegation 5
The USNA Deputy for Finance executed multiple ethics violations arising from a personal
relationship with a donor. The acceptance of gifts from this donor was not in compliance with
SECNAV and USNA gift procedures, financial disclosure procedures, and the Standards of
Ethical Conduct.

Actions Taken
The USNA inventoried gifts improperly received by the USNA Deputy for Finance. In addition,
the gifts were submitted to SECNAV for official approval and acceptance. The gift inventory
included items, valued at $184,712. The USNA inventoried gifts shown in table 4.




                                              37 

             Table 4. Gifts Inappropriately Accepted by the Deputy for Finance
                       Item            Description     Quantity     Value
                     Waterford          Stemware          754      $72,505
                      Crystal           Serveware         92       29,174
                                       Chandeliers          8       38,515
               Simon Pierce Pottery    Small Vases        12         1,500
                                       Large Vases        14         2,100
                     Baccarat             Glasses         22         2,310
                      Crystal              Vase            1           900
                                          Bowls             2        1,600
               Alcoholic Beverages Bottles of Wine         29        3,657
                       Bibles        Protestant Bible     312        8,733
                                      Catholic Bible      165        4,618
                   Daum Crystal            Vase            1         5,000
                      Artwork            Paintings         3        14,100
                  Total Value                                         $184,712

The USNA Superintendent issued an action memorandum on March 22, 2011, requesting the
Director Navy Staff to accept the in-kind gifts received. The USNA Superintendent requested
that the gifts be accepted by May 6, 2011.

Allegation 6
The USNA Deputy for Finance gave a gift to an official superior, and the gift acceptance was not
in compliance with the Standards of Ethical Conduct, 5 C.F.R. § 2635.302.

Actions Taken
The former USNA Superintendent returned the bottle of champagne to the USNA Deputy for
Finance. The Deputy for Finance resigned from the USNA in January 2011; however, as of March
2011, the champagne was in the former USNA Deputy for Finance’s vacant office.




                                              38 

Appendix D. Payments Before
Contractor’s Signature




                     39 

Appendix E. Illustration of Contractor’s
Payment Request




                       40 

Appendix F. Disbursement Requests From the
USNA of $60,000
Table F.1. Disbursement Requests by Recipient
      Date                           USNA Recipient                      Amount
 3/11/2010       Academic Center                                         $60,000
 5/13/2010       Academic Center                                          60,000
 11/17/2010      Academic Center                                          60,000
 12/14/2010      Academic Center                                          60,000
  Subtotal                                                                   $240,000
 1/12/2010       Admissions Outreach                                     $60,000
 2/18/2010       Admissions Outreach                                      60,000
 5/13/2010       Admissions Outreach                                      60,000
 5/13/2010       Admissions Outreach Marketing                            60,000
  Subtotal                                                                   $240,000
 1/26/2010       Center for Ethical Leadership Instructional Video       $60,000
 2/18/2010       Center for Ethical Leadership Instructional Video        60,000
  Subtotal                                                                   $120,000
 1/26/2010       Center for Ethical Leadership                           $60,000
 3/26/2010       Center for Ethical Leadership                            60,000
 5/27/2010       Center for Ethical Leadership                            60,000
  Subtotal                                                                   $180,000
 8/12/2010       Center for Middle East and Islamic Studies              $60,000
 2/18/2010       Distinguished Visiting IT Professor                      60,000
 3/11/2010       Distinguished Military Professor in Character            60,000
                 Development
 3/26/2010       Distinguished Visiting Professor in National Security    60,000
 3/11/2010       Heinlein Professor of Aerospace                          60,000
 3/26/2010       Kinnear Science Chair                                    60,000
  Subtotal                                                                   $360,000
 3/1/2010        McNeill Chair in Engineering                            $60,000
 5/27/2010       McNeill Chair in Engineering                             60,000
  Subtotal                                                                   $120,000
 5/13/2010       Midshipmen Welfare Fund                                 $60,000
 7/14/2010       Naval Heritage Chair                                     60,000
 8/12/2010       Naval Heritage Chair                                     60,000
  Subtotal                                                                   $180,000
 1/26/2010       Rogers Chair in Aerospace Engineering                   $60,000
 9/14/2010       Rogers Chair in Aerospace Engineering                    60,000
  Subtotal                                                                   $120,000
 3/1/2010        Science, Technology, Engineering and Math               $60,000
                 (STEM) Summer Program
 3/26/2010       STEM Summer Program                                      60,000


                                                 41 

      Date                            USNA Recipient                  Amount
 5/13/2010       STEM Summer Program                                   60,000
  Subtotal                                                                $180,000
 9/14/2010       Tetrault Director, Center for Ethical Leadership     $60,000
  Subtotal                                                                 $60,000
   Total                                                                $1,800,000

Table F. 2. Disbursement Request Deposits by Date
      Date                            USNA Recipient                  Amount

 01/12/10        Admissions Outreach                                   $60,000
 01/26/10        Center for Ethical Leadership Instructional Video      60,000
 01/26/10        Center for Ethical Leadership                          60,000
 01/26/10        Rogers Chair in Aerospace Engineering                  60,000
 02/18/10        Admissions Outreach                                    60,000
 02/18/10        Center for Ethical Leadership Instructional Video      60,000
 02/18/10        Distinguished Visiting IT Professor                    60,000
 03/01/10        McNeill Chair in Engineering                           60,000
                 Science, Technology, Engineering, and Math (STEM)      60,000
 03/01/10        Summer Program
 03/11/10        Heinlein Professor of Aerospace                         60,000
 03/11/10        Academic Center                                         60,000
 03/11/10        DMP in Character Development                            60,000
 03/26/10        Center for Ethical Leadership                           60,000
 03/26/10        DVP in National Security                                60,000
 03/26/10        Kinnear Science Chair                                   60,000
 03/26/10        STEM Summer Program                                     60,000
 05/13/10        Midshipmen Welfare Fund (DAS)                           60,000
 05/13/10        Academic Center                                         60,000
 05/13/10        Admissions Outreach                                     60,000
 05/13/10        Admissions Outreach Marketing                           60,000
 05/13/10        STEM Summer Program                                     60,000
 05/27/10        Center for Ethical Leadership                           60,000
 05/27/10        McNeill Chair in Engineering                            60,000
 07/14/10        Naval Heritage Chair                                    60,000
 08/12/10        Center for Middle East and Islamic Studies              60,000
 08/12/10        Naval Heritage Chair                                    60,000
 09/14/10        Rogers Chair in Aerospace Engineering                   60,000
 09/14/10        Tetrault Director, CEL                                  60,000
 11/17/10        Academic Center                                         60,000
 12/14/10        Academic Center                                         60,000
   Total                                                             $1,800,000




                                               42 

Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, Comments




                       43 

44 

Department of the Navy Comments 





                     45 

46 

47 

48 

49 

50 

 
